Assessment of 1999 Case Statistical Data
Home Reports Other   Legal Services Corporation Office of Inspector General
ASSESSMENT OF 1999 CASE STATISTICAL DATA
Updated: 20 August 2002
"The Office of the Inspector General will assess the case
service information provided by the grantees, and will report to the
Committees no later than July 30, 2000, as to its accuracy, as described in
the House report."
-- Congressional Record, November 19, 1999 [H12774]
Special Report to the Committees on Appropriations, July 30, 2000:
Executive Summary (4K). Full-text available in
PDF (100K) and
Word97 (337K) formats.
P R O J E C T   M E M O R A N D A
The Project Announcement Memorandum to the Executive Directors of LSC-funded Programs, January 11, 2000 8K
Data Calls 1 and 2 Specifications, February 2, 2000 7K
Data Call Submission Guidance, February 28, 2000 5K
Screening Directive, February 29, 2000 9K
Data Call 1 Selection Notice, March 2, 2000 11K
Data Call 2 Selection Notice, March 6, 2000 17K
Frequently Asked Questions, Updated April 7, 2000 8K
Project Completion Memorandum to the Executive Directors of Selected Programs, July 26, 2000 2K
L E G I S L A T I O N
House Report 106-283 4K. Other formats: PDF 7K | Word97 22K.
Congressional Record [H12274] 5K. Other formats: PDF 5K | Word97 24K.
L I T I G A T I O N
United States v. Legal Services for New York City, et al., 100 F. Supp. 2d 42 (D.D.C 2000) 06/00 26K
United States v. Legal Services for New York City, ___ F. 3d ___ (D.C. Cir. 2001). Slip Opinion 00-5244, May 25, 2001. 36K
Other formats: Word 61K | PDF 21K | ASCII Text 22K.
Bronx Legal Services, et al. v. Legal Services Corporation, et al. ___ F. Supp. 3d. (S.D.N.Y. 2002) Slip Opinion 00 Civ. 3423 (GBD), August 7, 2002. 28K
URL: http://www.oig.lsc.gov/csa/csa.htm